Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




CGS ADMINISTRATORS, LLC, PAID
  UNALLOWABLE LOWER LIMB
     PROSTHETICS CLAIMS




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                        July 2013
                                                      A-06-12-00055
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

 CGS Administrators, LLC, paid approximately $6 million for lower limb prosthetics
 claims that did not meet Medicare coverage requirements for 2010 and 2011.

WHY WE DID THIS REVIEW

Previous Office of Inspector General (OIG) reviews found that Durable Medical Equipment
(DME) Medicare Administrative Contractors (MACs) did not ensure that lower limb prosthetic
claims met the coverage requirements in local coverage determinations (LCDs). LCDs are
decisions by DME MACs on whether to cover a particular service in accordance with
section 1862(a)(1)(A) of the Social Security Act (the Act) and are published to provide guidance
to the public and the medical community. In response to one of OIG’s reviews, on March 5,
2012, the Centers for Medicare & Medicaid Services (CMS) issued a Technical Direction Letter
(TDL) directing the DME MACs to develop claim-processing edits for all requirements in
LCDs for lower limb prostheses. CGS Administrators, LLC (CGS), is one of the DME MACs.
This review is part of a series of reviews to determine the compliance of DME MACs with LCD
requirements for lower limb prostheses.

The objective of this review was to determine whether CGS processed and paid claims for lower
limb prostheses according to LCD requirements for calendar years 2010 and 2011.

BACKGROUND

Section 1862(a)(1)(A) of the Act requires that, to be paid by Medicare, a service or an item must
be reasonable and necessary for the diagnosis or treatment of illness or injury or improve the
functioning of a malformed body member. Medicare Part B provides for the coverage of durable
medical equipment, prostheses, orthotics, and supplies (DMEPOS).

A lower limb prosthesis is an artificial replacement for any or all parts of a leg; it provides an
individual who has an amputated limb with the ability to perform functional tasks, particularly
walking, that may not be possible without the device. For a lower limb prosthesis to be covered
by Medicare, the patient is expected to reach or maintain a defined functional level and be
motivated to ambulate.

When submitting claims to DME MACs, suppliers use Healthcare Common Procedure Coding
System (HCPCS) codes. Each claim can have multiple lines of service, each of which represents
a different component (e.g., foot, ankle) of the lower limb prosthesis provided by the supplier.
Lines of service are billed using HCPCS codes, many of which require a modifier code to
indicate such things as left or right limb and functional level. CGS published LCD L11442 for
lower limb prostheses. For items and services provided during 2010 and 2011, the LCD
contained coverage requirements, such as the functional levels required for certain components,
socket inserts that are allowed only in certain quantities, unallowable combinations of HCPCS
codes, and the DMEPOS suppliers’ documentation requirements. Medicare policy instructs
DME MACs to apply the LCD coverage requirements to claims on either a prepayment or
postpayment basis. CGS uses claim-processing edits to apply LCD requirements for lower limb


CGS Paid Unallowable Lower Limb Prosthetics Claims (A-06-12-00055)                                   i
prostheses on a prepayment basis. Prepayment edits are programming logic within a claim-
processing system that are designed to evaluate claims and prevent payment for errors such as
noncovered, incorrectly coded, or inappropriately billed lines of service.

WHAT WE FOUND

CGS paid $6,021,976 for 4,260 lines of service for lower limb prostheses in 2010 and 2011 that
did not meet LCD requirements, consisting of:

    •   $5,129,019 for 2,292 lines of service that had a missing or incorrect functional level
        modifier,

    •   $709,430 for 1,730 lines of service with unallowable quantities of socket inserts, and

    •   $183,527 for 238 lines of service that had unallowable combinations of components.

At the time that CGS paid these lines of service, it did not have edits in place to evaluate whether
they met all the LCD requirements.

WHAT WE RECOMMEND

We recommend that CGS:

    •   recover $6,021,976 in identified overpayments for lines of service for lower limb
        prostheses that did not meet LCD requirements in 2010 and 2011 and

    •   monitor the edits it developed in response to CMS’s March 2012 TDL to ensure that the
        edits are functioning correctly.

CGS ADMINISTRATORS, LLC, COMMENTS

CGS concurred with our recommendations and described corrective actions that it had taken or
planned to take.




CGS Paid Unallowable Lower Limb Prosthetics Claims (A-06-12-00055)                                 ii
                                                     TABLE OF CONTENTS


INTRODUCTION ..................................................................................................................... 1

           Why We Did This Review ............................................................................................. 1

           Objective ........................................................................................................................ 1

           Background .................................................................................................................... 1
                 Medicare Coverage of Lower Limb Prostheses ................................................. 1
                 Durable Medical Equipment Medicare Administrative Contractors ................. 2
                 Local Coverage Determinations and Claim-Processing Edits ........................... 2

           How We Conducted This Review.................................................................................. 3

FINDINGS ................................................................................................................................. 3

           Missing or Incorrect Functional Level Modifiers .......................................................... 4

           Unallowable Quantities of Socket Inserts ...................................................................... 4

           Unallowable Combinations of Components .................................................................. 4

RECOMMENDATIONS ........................................................................................................... 4

CGS ADMINISTRATORS, LLC, COMMENTS ..................................................................... 4

APPENDIXES

           A: Audit Scope and Methodology ................................................................................ 5

           B: CGS Administrators, LLC, Comments .................................................................... 6




CGS Paid Unallowable Lower Limb Prosthetics Claims (A-06-12-00055)                                                                                iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

Previous Office of Inspector General (OIG) reviews 1 found that Durable Medical Equipment
(DME) Medicare Administrative Contractors (MACs) did not ensure that lower limb prosthetic
claims met the coverage requirements in local coverage determinations (LCDs). LCDs are
decisions by DME MACs on whether to cover a particular service in accordance with
section 1862(a)(1)(A) of the Social Security Act (the Act) and are published to provide guidance
to the public and the medical community. In response to one of OIG’s reviews, on March 5,
2012, the Centers for Medicare & Medicaid Services (CMS) issued a Technical Direction Letter
(TDL) directing the DME MACs to develop claim-processing edits for all requirements in
LCDs for lower limb prostheses. CGS Administrators, LLC (CGS), is one of the DME MACs.
This review is part of a series of reviews to determine the compliance of DME MACs with LCD
requirements for lower limb prostheses.

OBJECTIVE

Our objective was to determine whether CGS processed and paid claims for lower limb
prostheses according to LCD requirements for calendar years 2010 and 2011.

BACKGROUND

Medicare Coverage of Lower Limb Prostheses

Under Title XVIII of the Social Security Act (the Act), the Medicare program provides health
insurance for people aged 65 and over, people with disabilities, and people with permanent
kidney disease. CMS administers the Medicare program. Section 1862(a)(1)(A) of the Act
requires that, to be paid by Medicare, a service or an item must be reasonable and necessary for
the diagnosis or treatment of illness or injury or improve the functioning of a malformed body
member.

According to the Act, Medicare Part B provides for the coverage of durable medical equipment,
prostheses, orthotics, and supplies (DMEPOS). A lower limb prosthesis is an artificial
replacement for any or all parts of a leg; it provides an individual who has an amputated limb
with the ability to perform functional tasks, particularly walking, that may not be possible
without the device. A prosthesis joins the beneficiary’s residual limb at one of several sites, such
as the hip, knee, ankle, or foot.

For a lower limb prosthesis to be covered by Medicare, the patient is expected to reach or
maintain a defined functional level and be motivated to ambulate. Functional levels range from
level 0 to level 4 and are indicated on prosthetic claims by modifiers K0 to K4. A K0 functional
level modifier identifies a beneficiary who does not have the ability or potential to ambulate or

1
 Lower Limb Prosthetics Claims Paid to Premier Prosthetics and Orthotics Were Not Always Supported by
Adequate Documentation (A-07-12-05026), issued December 2012, and Questionable Billing by Suppliers of Lower
Limb Prostheses (OEI-02-10-00170), issued August 2011.


CGS Paid Unallowable Lower Limb Prosthetics Claims (A-06-12-00055)                                     1
transfer safely with or without assistance, and a prosthesis does not enhance his or her quality of
life or mobility. In contrast, a K4 functional level modifier is for a beneficiary who has the
ability or potential for prosthetic ambulation that exceeds basic ambulation skills; this level is
typical of the prosthetic demands of the child, active adult, or athlete.

Durable Medical Equipment Medicare Administrative Contractors

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 required, among
other things, the use of MACs to process Medicare claims. CMS contracted with four DME
MACs to process and pay DMEPOS claims. Each DME MAC processes claims for one of four
jurisdictions, known as Jurisdictions A, B, C, and D. CGS is the DME MAC for Jurisdiction C;
it processes DMEPOS claims in 15 States, Puerto Rico, and the U.S. Virgin Islands. 2

When submitting claims to DME MACs, suppliers use Healthcare Common Procedure Coding
System (HCPCS) codes. 3 Each claim can have multiple lines of service, each of which
represents a different component (e.g., foot, ankle) of the lower limb prosthesis provided by the
supplier. Lines of service are billed using HCPCS codes, many of which require a modifier
code 4 to indicate such things as left or right limb and functional level.

Local Coverage Determinations and Claim-Processing Edits

According to chapter 13, section 13.1.3, of the Medicare Program Integrity Manual,
Pub. No. 100-08, LCDs are decisions by DME MACs on whether to cover a particular service in
accordance with section 1862(a)(1)(A) of the Act. Section 13.1.3 also states: “The LCDs
specify under what clinical circumstances a service is considered to be reasonable and necessary.
They are administrative and educational tools to assist providers in submitting correct claims for
payment. Contractors publish LCDs to provide guidance to the public and medical community
within their jurisdictions.”

CGS published LCD L11442 for lower limb prostheses. For items and services provided during
2010 and 2011, the LCD contained coverage requirements, such as the required functional levels
for certain components, restrictions on the quantities of socket inserts, 5 unallowable
combinations of HCPCS codes, and the DMEPOS suppliers’ documentation requirements.

Additionally, chapter 13, section13.10, of the Medicare Program Integrity Manual states that
DME MACs should apply the coverage requirements documented in LCDs to claims on either a
2
 Jurisdiction C States are Alabama, Arkansas, Colorado, Florida, Georgia, Louisiana, Mississippi, New Mexico,
North Carolina, Oklahoma, South Carolina, Tennessee, Texas, Virginia, and West Virginia.
3
  HCPCS is a medical code set used throughout the health care industry as a standardized system for describing and
identifying health care procedures, equipment, and supplies in health care transactions.
4
 A modifier is a two-position code reported with a HCPCS code and is designed to give Medicare and commercial
payers additional information needed to process a claim.
5
 A socket insert is used in the socket of the prosthesis to protect the beneficiary’s limb and to allow for
modifications to the fit of the prosthesis because of fluctuations in the size of the limb.



CGS Paid Unallowable Lower Limb Prosthetics Claims (A-06-12-00055)                                            2
prepayment or postpayment basis. CGS uses claim-processing edits to apply the LCD
requirements for lower limb prostheses on a prepayment basis. Prepayment edits are
programming logic within a claim-processing system that are designed to evaluate claims and
prevent payment for such errors as noncovered, incorrectly coded, or inappropriately billed lines
of service.

CMS issued its March 5, 2012, TDL to all DME MACs in response to OIG’s report issued in
August 2011. CMS’s TDL directed DME MACs to work collaboratively to develop a uniform
set of edits based on all of the LCD requirements and to implement these edits in the local claim-
processing system at each DME MAC no later than July 1, 2012.

HOW WE CONDUCTED THIS REVIEW

CGS paid approximately $500 million for 676,044 lines of service (135,339 claims) for lower
limb prostheses for 2010 and 2011. We developed programming logic to analyze these lines of
service to determine whether they met LCD requirements. Our analyses focused on the
requirements that could be tested through data analytics without the need to obtain additional
documentation from suppliers. We did not conduct a medical review to determine whether the
claims were medically necessary.

We assessed the reliability of the data from CMS’s National Claims History file by electronically
testing required data elements and by checking the basic reasonableness of the data against
another source. We determined that these data are sufficiently reliable for the purposes of this
report.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                             FINDINGS

CGS paid $6,021,976 for 4,260 lines of service for lower limb prostheses in 2010 and 2011 that
did not meet LCD requirements, consisting of:

    •   $5,129,019 for 2,292 lines of service that had a missing or incorrect functional level
        modifier,

    •   $709,430 for 1,730 lines of service with unallowable quantities of socket inserts, and

    •   $183,527 for 238 lines of service that had unallowable combinations of components.

Chapter 13, section13.10, of the Medicare Program Integrity Manual states that DME MACs
should apply the coverage requirements documented in LCDs to claims on either a prepayment


CGS Paid Unallowable Lower Limb Prosthetics Claims (A-06-12-00055)                               3
or postpayment basis. At the time that CGS paid the claims for these lower limb prosthetic lines
of service, it did not have claim-processing edits in place to evaluate whether they met all the
LCD requirements. However, CGS officials told us that in response to the TDL that CMS issued
on March 5, 2012, CGS developed claim-processing edits to address the LCD requirements.

MISSING OR INCORRECT FUNCTIONAL LEVEL MODIFIERS
LCD L11442 states that to receive certain lower limb prostheses, individuals should attain a
certain functional level, and the functional level modifier code must be included on the line of
service. For example, HCPCS code L5930 is for a high-activity knee frame. A beneficiary who
receives this knee frame must be able to attain a functional level of 4, and Medicare claims with
a line of service for L5930 must include the K4 modifier code. We identified instances in which
CGS processed and paid for L5930 lines of service that did not have a modifier code or that had
a modifier code other than K4. In total, CGS paid $5,129,019 for 2,292 lines of service that had
a missing or incorrect functional level modifier code.

UNALLOWABLE QUANITITES OF SOCKET INSERTS
LCD L11442 states that no more than two of the same socket inserts are allowed for an
individual lower limb prosthesis at the same time. CGS processed and paid for more than 2 of
the same socket inserts for individual prostheses, totaling $709,430 for 1,730 lines of service.

UNALLOWABLE COMBINATIONS OF COMPONENTS

LCD L11442 identifies certain combinations of components that are not allowed on lower limb
prostheses. For example, HCPCS code L5500 is for an initial below-the-knee prosthesis. When
this prosthesis is provided to a beneficiary, certain prosthetic additions, such as HCPCS code
L5629 (below-the-knee acrylic socket) are not allowable. We identified instances in which CGS
processed and paid for both L5500 and L5629 lines of service. In total, CGS paid $183,527 for
238 lines of service that had unallowable combinations of components.

                                      RECOMMENDATIONS

We recommend that CGS:

    •   recover $6,021,976 in identified overpayments for lines of service for lower limb
        prostheses that did not meet LCD requirements in 2010 and 2011 and

    •   monitor the edits it developed in response to CMS’s March 2012 TDL to ensure that the
        edits are functioning correctly.

                        CGS ADMINISTRATORS, LLC, COMMENTS

CGS concurred with our recommendations and described corrective actions that it had taken or
planned to take. CGS’s comments appear in their entirety as Appendix B.




CGS Paid Unallowable Lower Limb Prosthetics Claims (A-06-12-00055)                            4
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

CGS paid approximately $500 million for 676,044 lines of service (135,339 claims) for lower
limb prosthetics for 2010 and 2011. Our review focused on whether CGS met Medicare
requirements by paying only those lines of service for lower limb prosthetics that were in
accordance with its LCD on lower limb prostheses. We excluded claims that were flagged for
review by the Medicare Recovery Audit Contractor. We did not conduct a medical review to
determine whether the services were medically necessary. We did not review CGS’s overall
internal control structure, but limited our review of internal controls to those related to our audit
objective.

We conducted our audit from August 2012 to March 2013 and performed our fieldwork at
CGS’s headquarters in Nashville, Tennessee.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and DME MAC guidance;

    •   interviewed staff at CGS to gain an understanding of processing and payment of
        DMEPOS claims for lower limb prostheses;

    •   used CMS’s National Claims History file to identify Medicare Part B DMEPOS claims
        with dates of service from January 1, 2010, through December 31, 2011;

    •   developed programming logic to analyze the lines of service, focusing on the LCD
        requirements that could be tested through data analytics without the need to obtain
        additional documentation from suppliers; and

    •   discussed the results of our review with CGS officials.

We assessed the reliability of the data from CMS’s National Claims History file by electronically
testing required data elements and by checking the basic reasonableness of the data against
another source. We determined that these data are sufficiently reliable for the purposes of this
report.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.



CGS Paid Unallowable Lower Limb Prosthetics Claims (A-06-12-00055)                                      5
                APPENDIX B: CGS ADMINISTRATORS, LLC, COMMENTS 


                J ohn F. Kimball 

                Vice-President, Operations 

                CGS Administrators, LLC
                                                                                                                         0
                                                                                                                       CGS
                                                                                                                A Cf LlRIAN CROUI   COMPANY

                June 14,2013                                                                                      Two Vantage Way
                                                                                                                  Nashville, TN 37228
                                                                                                                  Tel: 615.782.4678
                 Ms. Patricia Wheeler 
                                                                           John.Kimball@cgsadmin.con
                 Regional Inspector General for Audit Services 

                 Office oflnspector General 

                 II 00 Commerce Street, Room 632 

                 Dallas, TX 75242 



                 RE: CGS Response to Draft OIG Report entitled CGS Administrators, LLC Paid Unallowable 

                 Lower Limb Prosthetics Claims (A-06-12-00055) 


                 Dear Ms. Wheeler,

                 CGS Administrators, LLC, the Durable Medical Equipment Medicare Administrative 

                 Contractor for Jurisdiction C, appreciates the opportunity to comment on the Office oflnspector 

                 General's draft report entitled CGS Administrators, LLC Paid Unallowable Lower Limb 

                 Prosthetics Claims. In addition to requesting comments on the report, you ask that CGS state 

                 concurrence or non-concurrence with each of the recommendations in the report. 


                 The OIG make s two (2) recommendations in its report. Those recommendations are:
                    1. 	 Recover the overpayment identified in the report as $6,021,976.00.
                    2. 	 Monitor the edits it developed in response to CMS's March 2012 TDL to ensure that the
                         edits are functioning correctly.

                 CGS concurs w ith both recommendations in the report. CGS wi ll recoup the overpayment 

                 identified and will use the information from the audit in its supplier educational activities. CGS 

                 has ongoing edit monitoring and has noted no issues with the edits implemented as the result of 

                 CMS's March 2012 TDL. In addition, CGS Technical Staff demonstrated the functionality of 

                 the edits to the OJG staff during their on-site review. 


                 In summary, CGS Administrators, LLC appreciates the opportunity to respond to the 

                 recommendations outlined in draft report A-06-1 2-00055 and, as demonstrated above, has taken 

                 steps to address those vulnerabi lities. Should you have any additional questions, please contact 

                 Larry Kennedy at 615 .782.4607 or Larry.Kennedy@cgsadmin.com. 


                 Sincerely,

                           iJ)j
               &?:Kimball


                 Copyright 0 2013, COS Administmtors, LLC
                 CGS Administrators, LLC is a Medicare Part A, B, Home Health and Hos pice, and 

                 DM E Medi care Administrative Contractor for the Centers for Medi care & Medicaid Services 





CGS Paid Unallowab le Lower Limb Prosthetics Claims (.A -06-12-00055)                                                                         6
